                    December 1, 1999 


                    BONNIE WEATHERMAN

                    SUPERVISOR, INTERNATIONAL RECORDS UNIT,

                    DULLES, VIRGINIA 


                    MICHAEL NAPPY

                    MANAGER, INTERNATIONAL OPERATIONS SUPPORT


                    SUBJECT:	 Internal Controls at the Dulles, Virginia,
                              International Records Unit
                              (Report Number FR-FA-00-008)

                    This report presents an interim finding identified during our
                    audit of the Postal Service Financial Statements for fiscal
                    year (FY) 1999, St. Louis Information Service Center
                    (Project No. 99-PA-008-FR-005).

Results in Brief	   The Dulles International Records Unit took corrective
                    actions to improve procedures and controls over military
                    mail accounting documents. Even though system
                    enhancements were made to improve data input accuracy
                    on military mail accounting document pieces and weights,
                    corrective actions were not completed for two weaknesses
                    identified in our previous report:

                    1.	 Controls were not sufficient to ensure all military mail
                        accounting documents were input into the Military
                        International Dispatch and Accountability System.

                    2. Procedures were not documented detailing the roles and
                       responsibilities of those accountable to ensure that
                       military mail accounting documents were prepared and
                       recorded.
Internal Controls at the Dulles, Virginia,                                            FR-FA-00-008
 International Records Unit



                                  In addition, military mail accounting data were not always
                                  accurately input by the Records Unit into the Military
                                  International Dispatch and Accountability System or
                                  correctly accepted by the Customer Information Control
                                  System.

Background                        During the FY 1998 audit,1 Inspection Service and Office of
                                  Inspector General personnel identified that internal controls
                                  and procedures at the International Records Unit in Dulles,
                                  Virginia, were not adequate to ensure military mail
                                  accounting documents were recorded accurately within
                                  established deadlines. Military postal facilities did not
                                  prepare accounting documents according to Postal Service
                                  guidelines, and Records Unit procedures were ineffective in
                                  identifying and reporting these deficiencies to management
                                  for corrective action. Additionally, coordination between the
                                  military and Postal Service was delayed because the
                                  Records Unit did not report to Postal Service international
                                  operations.

                                  In the 1998 report, we recommended that controls and
                                  procedures be established to ensure military mail
                                  accounting documents were recorded. In addition, we
                                  recommended that the Records Unit report to international
                                  operations and a line of communication be opened
                                  immediately among the Records Unit, international
                                  operations, and the United States military. Postal Service
                                  management officials concurred with the recommendations.

Objective, Scope, and Our objective was to follow up on issues identified during
Methodology           the FY 1998 financial statement audit. Specifically, we
                      reviewed internal controls over military mail accounting
                      documents and followed-up on previous reports to assure
                      that corrective actions were in place and working. This
                      portion of the audit was conducted from July 1999 through
                      August 1999 in accordance with generally accepted
                      government auditing standards and included tests of
                      internal controls as were considered necessary under the
                      circumstances. We discussed our conclusions and
                      observations with appropriate management officials and
                      included their comment, where appropriate.


1
    United States Postal Inspection Service Case No. 311-98-001-1224758-AD(1)



                                                         2
                                              Restricted Information
Internal Controls at the Dulles, Virginia,                                                                FR-FA-00-008
 International Records Unit


Repeat Findings 	                  The following issues were identified during our FY 1998
                                   audit but have not been adequately resolved.

Military Mail 	        Although system enhancements were made to improve data
Accounting Documents 	 input accuracy on military mail accounting document pieces
                       and weights, the International Records Unit did not ensure
                       that all military mail accounting documents received were
                       entered into the Military International Dispatch and
                       Accountability System. This occurred because of ineffective
                       Military International Dispatch and Accountability System
                       informational reports and an ineffective process to verify
                       data input by Records Unit personnel. For example, system
                       reports were not sorted to easily identify missing
                       documents. Also, the Records Unit supervisor attempted to
                       verify that all military mail documents were input accurately
                       into the Military International Dispatch and Accountability
                       System. Failure to enter all documents into the system can
                       result in untimely payments to the air carriers. As a result of
                       our audit work, the systems support staff for the Military
                       International Dispatch and Accountability System modified
                       an existing report that showed military mail accounting
                       documents, in numerical order, received for each location.
                       In addition, they produced a new report that identified
                       missing documents. This should provide the Records Unit
                       with an easier way to identify missing documents.

International Records              The International Records Unit was not reorganized under
Unit Reorganization                the control of the International Business Unit as
                                   recommended in a previous report. Although consideration
                                   for reorganization was given, the International Records Unit
                                   remains under the direction of the Northern Virginia district
                                   finance manager. Dialog was established among the
                                   Records Unit, International Accounting, International
                                   Operations Support,2 and the military, with new procedures
                                   implemented that tasked each organization with specific
                                   functions.

                                   However, the roles and responsibilities of each organization
                                   were not documented because updating the handbook was
                                   not considered a priority. During the audit, International
                                   Operations Support personnel initiated action to update the
                                   Handbook T-7, Distributing, Dispatching, and Transporting
                                   Military Mail by Air. Documenting the current procedures
2
 Responsibilities for oversight of military mail operations shifted from the International Business Unit to International
Operations Support since our last review.



                                                           3
                                                Restricted Information
Internal Controls at the Dulles, Virginia,                                              FR-FA-00-008
 International Records Unit


                                  and roles and responsibilities of accountable personnel will
                                  help to ensure the lines of communications remain open
                                  and air carriers are paid promptly.

Recommendations 	                 We offer the following recommendations.

                                  The supervisor, International Records Unit, should:

                                  1. Annotate on the office form, Military Tracking of AV-7s,
                                     that the documents received were entered into the
                                     Military International Dispatch and Accountability
                                     System.

                                  2.	 Perform a statistical sample of military mail accounting
                                      documents to verify data input.

                                  The manager, International Operations Support, should:

                                  3. Document new procedures for recording military mail
                                     accounting documents and incorporate the roles and
                                     responsibilities of accountable organizations and
                                     personnel.

System Controls 	                 Military mail accounting data were not always accurately
                                  input by the Records Unit personnel into the Military
                                  International Dispatch and Accountability System. This
                                  occurred because the edit control on valid air carriers within
                                  the Military International Dispatch and Accountability
                                  System was “disabled” during previous system
                                  modifications. Records Unit personnel were researching
                                  errors that could have been prevented during the input
                                  process. As a result of our audit, the Military International
                                  Dispatch and Accountability System was modified to include
                                  an edit check for the air carrier code.

                                  In addition, military mail accounting data were not always
                                  correctly accepted by the Customer Information Control
                                  System. This occurred because the Customer Information
                                  Control System master reference files did not always
                                  contain updated data that related to valid air carriers and
                                  routes. The files should be updated concurrently with the
                                  Military International Dispatch and Accountability System
                                  master reference files to ensure consistency. As a result,
                                  an error report was providing inaccurate information.




                                                        4
                                             Restricted Information
Internal Controls at the Dulles, Virginia,                                            FR-FA-00-008
 International Records Unit


                                  Records Unit personnel were therefore researching items
                                  that potentially were not errors.

                                  International Records Unit personnel, on a daily basis, input
                                  military mail accounting documents into the Military
                                  International Dispatch and Accountability System. The data
                                  are validated against the Military International Dispatch and
                                  Accountability System master reference files. For example,
                                  the reference files contain information regarding valid air
                                  carriers and routes. Once per week, the validated Military
                                  International Dispatch and Accountability System data is
                                  uploaded to the Customer Information Control System. The
                                  data again are validated, this time against the Customer
                                  Information Control System master reference files. If the
                                  data fail this validation, an error report is generated and
                                  provided to the Records Unit for correction.

Recommendation                    We offer the following recommendation.

                                  The manager, International Operations Support, should:

                                  4. Coordinate with the information systems support staff to
                                     ensure that the Customer Information Control System
                                     master reference files are updated simultaneously when
                                     the Military International Dispatch and Accountability
                                     System master reference files are updated.

                                  Please furnish a reply within 20 days describing the
                                  corrective actions planned or taken, including the
                                  timeframes, on our recommendations. This finding will be
                                  included in a consolidated report for the St. Louis
                                  Accounting Service Center at the conclusion of the FY 1999
                                  financial statement audit. The report will include your
                                  comments and any planned corrective actions. If you have
                                  any questions, please contact me at (703) 248-2207.



                                  Richard F. Chambers
                                  Assistant Inspector General
                                   for Performance




                                                        5
                                             Restricted Information
Internal Controls at the Dulles, Virginia,                            FR-FA-00-008
 International Records Unit


                                  cc: Sylvester Black
                                      Jayne E. Schwarz
                                      Kristine A. Wright
                                      Jim Stumpf
                                      John R. Gunnels




                                                        6
                                             Restricted Information
